U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report




        Farm Service Agency
      Risk Management Agency
Crop Loss Disaster Assistance Program




                 Report No.
                 50801-3-KC
                 September 2000
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                           OFFICE OF INSPECTOR GENERAL
                                 Washington D.C. 20250


   DATE:       September 28, 2000

REPLY TO
ATTN OF:       50801-3-KC

SUBJECT:       Crop Loss Disaster Assistance Program

     TO:       Keith Kelly
               Administrator
               Farm Service Agency

               Kenneth D. Ackerman
               Administrator
               Risk Management Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff
               Farm Service Agency

               Garland Westmoreland
               Deputy Administrator
                for Risk Compliance
               Risk Management Agency


This report presents the results of the subject audit. Farm Service Agency’s June 29, 2000, and
Risk Management Agency’s July 13, 2000, written comments on the draft report are included as
exhibits D and E, respectively, with excerpts and the Office of Inspector General's (OIG) position
incorporated into relevant sections of the report. Your responses provided sufficient information to
reach management decision for Recommendations Nos. 9, 10, and 12. We need additional
information for management decision on Recommendations Nos. 1, 2, 3, 4, 5, 6, 7, 8, 11, 13, 14,
and 15. Information needed to reach management decision is presented in the OIG Position
section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation for
those recommendations for which a management decision has not yet been reached.
Keith Kelly et al.                                                                          2


Please note that the regulation requires a management decision on all findings and
recommendations within a maximum of 6 months from report issuance and final action to be
taken within 1 year of each management decision. Correspondence concerning final action should
be addressed to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff.




      /S/
JAMES R. EBBITT
Assistant Inspector General
 for Audit
                      EXECUTIVE SUMMARY
               CROP LOSS DISASTER ASSISTANCE PROGRAM

                             AUDIT NO. 50801-3-KC


                                      We undertook a review of the Crop Loss
     RESULTS IN BRIEF                 Disaster Assistance Program (CLDAP) in
                                      cooperation with the two agencies that jointly
                                      administered the program--the Farm Service
         Agency (FSA) and the Risk Management Agency (RMA).                   Joint
         administration was necessary because FSA’s disaster assistance
         amounts depended on whether the producers’ crops were insured by
         RMA. Because the CLDAP, like prior disaster assistance programs, had a
         short implementation timeframe, we agreed with FSA and RMA that the
         best assistance we could offer would be to critique program activities
         sooner rather than later. The primary objective of our review, therefore,
         was to provide FSA and RMA program managers with an ongoing
         assessment of the CLDAP as it evolved so they could respond at the
         earliest signs of a problem.

           This proactive approach to program administration--bringing delivery,
           oversight, and enforcement into play simultaneously--had an observable
           impact on the program’s integrity. Despite the complexities associated
           with the administration of this program, FSA and RMA delivered it with
           relatively few errors and within a reasonable period. We only identified
           errors on about 6.5 percent of the CLDAP applications in our samples that
           were serious enough to impact program payments. Overall, the FSA field
           offices provided about $2 billion in emergency assistance to about
           273,000 producers by the end of May 1999, or within 120 days of the start
           of the signup period.

           The results of our reviews demonstrated the efficacy of early intervention
           in all phases of program delivery. FSA and RMA’s positive response to
           potential problems served to maintain a high level of integrity in the
           program.

           During the early phase of the program, we focused on yields, payment
           rates and factors. We noted that FSA used crop yields (bushels, etc.) to
           determine losses, whereas RMA insured certain crops in dollars. As a
           result of these reviews, FSA issued procedures for converting dollar
           insurance policies to units of measure, to ensure compatibility in loss
           claims.


USDA/OIG-A/50801-3-KC                                                         Page i
           •   Also during the early phase, we reported differences between producer
               yields, acreages, and shares as identified by FSA and by RMA. FSA
               and RMA acted to resolve these discrepancies in the two agencies’
               records.

           •   During the application phase, we found that producers did not always
               correctly certify their losses. For example, four Louisiana catfish
               producers claimed losses on ponds that were not used for catfish
               production. Another 19 producers misreported production, income, or
               some other eligibility factor because they misunderstood CLDAP
               requirements. In a timely response to our report, FSA corrected about
               $359,000 in potential overpayments and ruled the four catfish
               producers ineligible for the CLDAP.

           •   Also during the application phase, we noted that State offices did not
               always establish correct payment rates or factors. California’s CLDAP
               payment rate for peas was more than double the payment rate
               established for the Noninsured Crop Disaster Assistance Program
               (NAP). Colorado’s payment factors for various crops were likewise
               excessive. FSA corrected the payment rates and factors and avoided
               issuing overpayments.

           In other areas, continued efforts were needed. We alerted FSA and RMA
           early in the signup period to the possibility that producers could receive
           overpayments (1) if their payments exceeded their expected gross
           revenues for the crops or (2) if their disaster payments were based on
           inflated crop insurance indemnities. However, the agencies did not act in
           a timely manner to preclude these overpayments. Twenty-nine corn
           producers (from a sample of over 500 policies) received about $80,000 in
           CLDAP benefits in excess of their expected gross revenues. Texas corn
           and cotton producers received millions in excessive CLDAP benefits
           because their payments were based on about $20 million in improper crop
           insurance indemnities.

           Our review also showed that producers did not always accurately report
           their eligible acreage, crop production, crop shares, and other qualifying
           data. Inaccurate reporting resulted in $821,500 in overpayments. In one
           case, a crop insurance agent and two producers created excessive yield
           histories for crop insurance purposes. Another eight producers, including
           a county committee chairman, incorrectly certified to their gross revenue.

           In several instances, we found that program managers did not effectively
           apply program provisions.

           The amount of liquidated damages for noncompliance was not included on
           the CLDAP contract, and CLDAP payments were made to producers on
           RMA’s ineligible producer list.
USDA/OIG-A/50801-3-KC                                                         Page ii
            About 21,400 uninsured producers received about $70 million in CLDAP
            benefits but did not purchase crop insurance for the 1999 crop year
            (producers who were uninsured in 1998 could receive CLDAP payments
            for that year only if they insured their crops in 1999 and 2000).

            969 producers on RMA’s ineligible producer list were paid about
            $8.8 million in CLDAP payments without proper assurances that these
            producers paid their prior years’ crop insurance premiums.

            47 producers received CLDAP payments from both the single and multi-
            year CLDAP funds. Program rules allowed producers to claim a loss for
            either 1998 or for the years 1994 through 1998, but not both. These
            47 producers were overpaid $292,500.

            Producers received questionable CLDAP payments on 16 crops where
            payment factors were higher than those established for the NAP.

            We also noted that NAP applications in one county in Texas had been
            filed after the end of the designated disaster period, and that field
            inspections for these applicants were made when it was no longer
            possible to verify a crop loss. In their response to our review, Texas State
            FSA officials initiated target reviews for the NAP throughout the State.
            The results of these reviews will be used to address cross-cutting issues
            in NAP and other crop emergency programs.

                                      FSA should follow up with the State offices
 KEY RECOMMENDATIONS                  and determine if overpayments were collected
                                      or claims properly established for the cases
                                      cited in the Statement of Conditions that we
        issued for each State. We also recommend that FSA develop and
        implement procedures to limit future disaster payments to the producer’s
        expected gross return for the disaster crop and to adjust disaster program
        payments downward when inflated crop insurance indemnities are to be
        used as a basis for payment. FSA should emphasize to producers the
        importance of providing correct information and making correct
        certifications, as well as direct their compliance reviews toward the areas
        where most program errors occurred.

                                      In their written comments on the draft report
    AGENCY RESPONSE                   (see exhibits D and E) the agencies generally
                                      agreed with the audit findings and
                                      recommendations with the exception that FSA
        believes that sufficient safeguards were in place to prevent producers from
        exceeding their expected gross returns for the crop.



USDA/OIG-A/50801-3-KC                                                           Page iii
           FSA agreed to follow up with State offices to determine if overpayments
           were collected or claims proper established for the cited cases. FSA also
           agreed to emphasize to producers the importance of providing correct
           information and making correct certifications and to direct their compliance
           reviews towards areas where most program errors occurred.

                                      We generally agree with the proposed
        OIG POSITION                  corrective actions for the audit findings and
                                      recommendations except for FSA’s response
                                      to our finding that FSA did not develop
          procedures to limit disaster benefits to the value of the expected gross
          returns for the crop.




USDA/OIG-A/50801-3-KC                                                          Page iv
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................................. i
   RESULTS IN BRIEF................................................................................................................. i
   KEY RECOMMENDATIONS ................................................................................................ iii
   AGENCY RESPONSE........................................................................................................... iii
   OIG POSITION ........................................................................................................................iv
TABLE OF CONTENTS .............................................................................................................v
INTRODUCTION ..........................................................................................................................1
   BACKGROUND .......................................................................................................................1
   OBJECTIVES ...........................................................................................................................2
   SCOPE.......................................................................................................................................2
   METHODOLOGY .....................................................................................................................3
FINDINGS AND RECOMMENDATIONS.................................................................................5
   CHAPTER 1 ..............................................................................................................................5
   AGENCIES WORKED TOGETHER EFFECTIVELY TO DELIVER THE CLDAP........5
   FINDING NO. 1 .........................................................................................................................5
   CHAPTER 2 ..............................................................................................................................8
   CLDAP POLICY DECISIONS RESULT IN PROGRAM OVERPAYMENTS.................8
   FINDING NO. 2 .........................................................................................................................8
   RECOMMENDATION NO. 1 ................................................................................................10
   FINDING NO. 3 .......................................................................................................................11
   RECOMMENDATION NO. 2 ................................................................................................13
   CHAPTER 3 ............................................................................................................................15
   PRODUCERS DID NOT CERTIFY CORRECTLY...........................................................15
   FINDING NO. 4 .......................................................................................................................15
   RECOMMENDATION NO. 3 ................................................................................................17
   RECOMMENDATION NO. 4 ................................................................................................17
   RECOMMENDATION NO. 5 ................................................................................................18
   RECOMMENDATION NO. 6 ................................................................................................18
   CHAPTER 4 ............................................................................................................................20

USDA/OIG-A/50801-3-KC                                                                                                               Page v
   SOME PROGRAM AREAS NEEDED IMPROVEMENTS ..............................................20
   FINDING NO. 5 .......................................................................................................................20
   RECOMMENDATION NO. 7 ................................................................................................21
   FINDING NO. 6 .......................................................................................................................22
   RECOMMENDATION NO. 8 ................................................................................................23
   RECOMMENDATION NO. 9 ................................................................................................24
   FINDING NO. 7 .......................................................................................................................24
   RECOMMENDATION NO. 10..............................................................................................26
   FINDING NO. 8 .......................................................................................................................26
   RECOMMENDATION NO. 11..............................................................................................27
   FINDING NO. 9 .......................................................................................................................28
   RECOMMENDATION NO. 12..............................................................................................29
   RECOMMENDATION NO. 13..............................................................................................30
   FINDING NO. 10 ....................................................................................................................30
   RECOMMENDATION NO. 14..............................................................................................32
   RECOMMENDATION NO. 15..............................................................................................32
   EXHIBIT A – SUMMARY OF MONETARY RESULTS...................................................34
   EXHIBIT B – AUDIT SITES .................................................................................................35
   PHASE I...................................................................................................................................35
   PHASE II..................................................................................................................................36
   EXHIBIT C – SUMMARY OF STATEMENTS OF CONDITIONS ISSUED..................37
   EXHIBIT D – FSA RESPONSE TO DRAFT REPORT....................................................38
   EXHIBIT E – RMA RESPONSE TO DRAFT REPORT ...................................................48
ABBREVIATIONS .....................................................................................................................50




USDA/OIG-A/50801-3-KC                                                                                                              Page vi
                             INTRODUCTION

                                     Title XI of the Omnibus Consolidated and
       BACKGROUND                    Emergency Supplemental Appropriations Act,
                                     Public Law 105-277 (hereinafter referred to as
                                     the Act), dated October 21, 1998, authorized
         the Secretary to establish the Crop Loss Disaster Assistance Program
         (CLDAP). The objectives of CLDAP were to provide producers with
         disaster assistance for 1998 single-year crop losses; multi-year crop losses
         from 1994 through 1998; flooded land ineligible for crop insurance benefits;
         and quality losses. In addition to the disaster assistance, premium
         discounts were offered as incentives for producers to increase their crop
         insurance coverage for the 1999 crop year.

           The Act provided $1.5 billion to assist producers for losses suffered due to
           the 1998 disaster, and $875 million to assist producers who incurred multi-
           year losses in the years 1994 through 1998. Producers could receive
           payments under either the single-year or multi-year provisions, but not both.
           The Farm Service Agency (FSA) automatically determined which payment
           was higher and paid the producer accordingly. In addition, the Act provided
           that producers who did not purchase crop insurance for the 1998 crop shall
           agree by contract to purchase crop insurance for the 1999 and 2000 crop
           years.

           Producers were eligible for 1998 single year assistance if they had suffered
           losses exceeding 35 percent of their historical yields. Producers with losses
           on insured crops were entitled to 65 percent of crop insurance market price
           elections. Producers who did not insure their crops were entitled to
           compensation at 60 percent of the crop insurance market price. Producers
           with noninsurable crops were compensated at 65 percent of the 5-year
           average price as determined by the National Agricultural Statistics Service
           (NASS).

           Under the multi-year provisions, FSA paid farmers for losses in 3 or more
           years from 1994 through 1998 at a rate equal to 25 percent of the insurance
           indemnities during that period. FSA also paid farmers with eligible losses
           on noninsurable crops at a rate equal to 25 percent of their Noninsured
           Crop Disaster Assistance Program (NAP) payments.             No individual
           producer would receive more than $80,000 or be eligible for payment if their
           annual gross revenues were greater than $2.5 million.

           FSA, acting as the lead agency, developed the program regulations and
           procedures and delivered the program through its network of field offices
           and its Kansas City Management Office (KCMO). Risk Management

USDA/OIG-A/50801-3-KC                                                           Page 1
           Agency (RMA) was responsible for crop insurance policies and
           procedures and providing crop insurance records to FSA county offices
           before sign-up started on February 1, 1999. These records were used as
           the basis for payment for the insured producers. RMA’s regional offices
           assisted the FSA field offices by helping resolve any questions on the crop
           insurance records provided to them.

           After the sign-up period ended on April 16, 1999, FSA county offices
           reviewed and approved the applications and prepared the data for upload
           and analysis by the FSA National Office. On May 5, 1999, FSA county
           offices uploaded the CLDAP program data to its KCMO. The data was then
           used to develop a national payment factor to apply to all payments so that
           CLDAP expenditures did not exceed the amount authorized by law. On
           May 26, 1999, FSA issued procedures authorizing county offices to issue
           the CLDAP payments.

           NAP benefits are authorized for approved areas where the average yield
           for the crop falls below 65 percent of the expected area yield. Eligible
           producers are covered for losses of expected production in excess of
           50 percent of the producer’s approved yields. Notice of loss must be filed
           within 15 calendar days of the prevented planting, the end of the planting
           period, the disaster occurrence, or the date damage is apparent to the
           producer. The payment rates for the 1995 through 1998 crop years are
           60 percent of the average market price established for the commodity.
           Producers are not eligible for NAP benefits if their gross revenue exceeds
           $2 million.

                                     The overall objective of the audit was to assist
        OBJECTIVES                   program managers by providing them an
                                     ongoing assessment of the program as it
                                     evolved        through     the     development,
         implementation, and execution stages. In particular, we focused on the
         development of program regulations and procedures, program sign-up
         operations, the establishment of payment rates, the transfer of data
         between agencies, the eligibility of producers and crops, producer
         payment limitation determinations, crop insurance purchase requirements,
         and the establishment of quality controls.

                                         The audit was accomplished using a multiple
            SCOPE                        phase approach. Phase I of the review was
                                         performed during February and March of 1999.
                                         We visited or contacted the FSA and RMA
           National Offices; FSA’s KCMO; RMA’s Research and Development Division
           in Kansas City, Missouri; RMA Regional Service Offices in St. Paul,
           Minnesota; Springfield, Illinois; Billings, Montana; and Topeka, Kansas. We
           also visited 14 FSA State and 59 county offices (see exhibit B for States
           and counties selected for Phase I of the review). Our selection of State and

USDA/OIG-A/50801-3-KC                                                          Page 2
           county offices was based on the level of 1998 crop insurance indemnities,
           percentage of producers with at least three crop insurance losses in the last
           5 years, and 1998 NAP approved areas.

           Our Phase II review was performed from March through May 1999, at
           40 FSA county offices in 14 States (see exhibit B for States and counties
           selected for Phase II of the review). We usually performed our Phase II
           reviews at the same county offices selected during Phase I. However, we
           did include additional county offices in order to expand our overall review.
           Also, one county office was selected based on a request by the Louisiana
           State FSA Office and a separate audit report (50801-9-Te) was issued in
           August 1999. At the county offices, we judgmentally selected and reviewed
           1,855 out of about 43,009 CLDAP applications and 54 out of 661 NAP
           applications. The selections were based on whether the applicant (1) was a
           county committee member or county office employee, (2) had the potential
           to exceed the gross revenue limitation, (3) had questionable 1998 indemnity
           amounts, (4) had a 1998 NAP application, and/or (5) had the largest
           projected CLDAP payments.

           Overall, producers received about $1.3 billion in single-year and
           $575 million in multi-year CLDAP payments. The States selected for our
           Phase II review accounted for about $877 million (66 percent) of the total
           single-year payments and $380 million (66 percent) of the total multi-year
           payments. As of February 11, 1999, about $7 million in NAP benefits had
           been disbursed for the 1998 crop year with about $5.7 million (81 percent)
           in our sampled States.

           As part of the review, we used the RMA download of crop insurance
           indemnities for the 1994 through 1998 reinsurance years dated March 3
           and March 4, 1999. We also used RMA’s ineligible producer lists as of
           February and June 1999, and the FSA upload files dated May 5, June 2,
           and July 21, 1999, to identify all producers scheduled to receive CLDAP
           payments. In addition, we used FSA’s producer payment reporting system
           files as of August 1999 and 1998 NAP and CLDAP crop tables dated
           May 14 and May 25, 1999, respectively, during our review.

           Exhibit A presents the summary of monetary results for the audit (also see
           exhibit C, Summary of Statements of Conditions Issued). The audit was
           conducted in accordance with Government Auditing Standards.

                                     To accomplish the objectives, we initially
      METHODOLOGY                    interviewed FSA and RMA officials in
                                     Washington, D.C., and Kansas City, Missouri,
                                     to identify the applicable laws, regulations,
         program procedures, policies for implementing the CLDAP, and assessed
         the reliability of computer system software and input data. We then


USDA/OIG-A/50801-3-KC                                                           Page 3
           contacted personnel at the RMA Regional Service Offices to determine
           the procedure for handling of producer disputes of crop insurance data.

           During Phase I, we interviewed FSA State office personnel to determine
           the nature and scope of policies and procedures issued and extent of their
           outreach activities. At the FSA county offices, we interviewed personnel
           and reviewed program records to identify any concerns with crop loss
           evidence, assignment of production and maximum payment limits, and
           outreach efforts.

           As part of Phase II at the FSA county offices, we reviewed CLDAP
           applications, supporting documents, and other program records, to
           determine whether producers and crops met eligibility requirements, and if
           payment and gross revenue limitation provisions were properly applied. We
           also interviewed producers if we needed additional information regarding
           their reported crop losses or revenues.

           We performed computer analyses of the single-year and multi-year
           indemnity payment files to verify the accuracy of the downloaded databases
           and the producer payment reporting system files for CLDAP payments to
           identify producers receiving payments from both funds. We also compared
           RMA’s ineligible producer file and the producer payment reporting system
           file to determine if ineligible producers improperly received CLDAP
           payments. NAP and CLDAP crop table files were compared to ensure that
           payment rates and factors were consistent between the two programs. We
           also reviewed RMA databases to identify the highest indemnities in our
           sample counties for further review. In addition, we reviewed the CLDAP
           payment files used to establish the national payment factor.

           In addition, we issued a Management Alert (No. 50801-3-KC (1)) on
           February 22, 1999, to advise FSA and RMA managers of issues identified
           during Phase I. We also issued Statements of Conditions to each of the
           applicable FSA State offices and two RMA compliance field offices to
           provide them the opportunity to review and comment on the results of our
           reviews (see exhibit C for a list of the Statements of Conditions issued).




USDA/OIG-A/50801-3-KC                                                        Page 4
           FINDINGS AND RECOMMENDATIONS


CHAPTER 1        AGENCIES WORKED TOGETHER EFFECTIVELY TO
                 DELIVER THE CLDAP


                                       Despite the complexities associated with the
        FINDING NO. 1                  implementation of this program, FSA and RMA
                                       effectively delivered the 1998 CLDAP and
                                       provided about $2 billion in payments to about
                                       273,000 producers within a reasonable time
           and with few errors. We found that only about 6.5 percent of the disaster
           applications included in our sample had errors serious enough to impact
           program payments. In terms of numbers, we only found 58 county office
           errors, 58 producer errors, and 4 State office errors during our review of
           1,909 disaster applications. Because FSA and RMA coordinated their
           efforts and proactively addressed program deficiencies, they were able to
           timely resolve program administrative issues, and avoid $458,041 in
           potential overpayments and $39,813 in potential underpayments, as shown
           in exhibit C.

           Our objective was to assist FSA and RMA program managers with the
           delivery of the new CLDAP, by providing them an ongoing assessment of
           the program as it evolved through the development, implementation, and
           execution phases. During the program development phase, we reviewed
           and evaluated the CLDAP legislation, regulations, and procedures and
           tested the accuracy and reliability of RMA insurance contract information
           downloaded to FSA county offices. We also participated in CLDAP training
           sessions and provided input into the development of spot-check
           procedures that FSA used to control producer compliance with program
           provisions. We reviewed CLDAP development and implementation in two
           phases at FSA State and county offices.

           During the Phase I fieldwork from February 22, 1999, to March 30, 1999,
           we reviewed program signup operations at 14 FSA State offices and
           59 FSA county offices.        While at these offices, we evaluated the
           establishment of yields, payment rates and factors, program outreach
           efforts, county office workloads, and any inconsistencies between FSA and
           RMA farm records. We held three conference calls with FSA and RMA
           program managers to inform them of the results of our review. As a result
           of these conference calls, the FSA National Office issued procedures for


USDA/OIG-A/50801-3-KC                                                        Page 5
                   converting dollar insurance policies to a unit of measure1 , and placed more
                   emphasis on outreach efforts at FSA State and county offices. In another
                   case, we issued Management Alert No. 50801-3-KC (1) on
                   February 22, 1999, advising RMA and FSA that procedures were needed
                   for resolving differences among farm yields, acreages, and producer shares
                   in their agency records. FSA and RMA agreed and issued instructions on
                   April 7, 1999, to their field offices on how to resolve these differences.

                   During the Phase II fieldwork from March 24, 1999, to June 25, 1999, we
                   reviewed 438 multi-year and 1,417 single-year CLDAP applications and
                   54 single-year NAP applications in 40 FSA county offices in 14 States.
                   We determined if producers and crop losses met eligibility requirements
                   and if payment and gross income provisions were correctly applied. An
                   example of proactive agency involvement in the CLDAP occurred during
                   Phase II fieldwork in Louisiana: On April 12, 1999, the Louisiana State FSA
                   Office requested the Office of Inspector General’s (OIG) assistance in
                   reviewing applications for CLDAP benefits for catfish losses on ponds that
                   were not used for catfish production. On June 8, 1999, we advised the
                   Louisiana State FSA Office that four of the five producers reviewed had
                   misrepresented their catfish losses (audit no. 50801-9-Te).              On
                   July 7, 1999, the State office stated that the Franklin Parish county
                   committee (COC) had determined these producers were ineligible to
                   receive $223,307 in CLDAP benefits because they had misrepresented
                   material facts on their applications.2

                   Our Phase II fieldwork in the other States showed that:

                             Nineteen producers did not correctly certify one of the following
                             program requirements: crop production, gross income, crop acreage,
                             producer shares, or causes of loss. This occurred because of
                             producer oversight and misunderstanding of CLDAP requirements.
                             FSA corrected the applications and prevented improper
                             overpayments of $135,609 and an underpayment of $556.

                             Fifty-four producers’ disaster applications contained incorrect
                             program information relative to payment rates, crop yields, crop
                             production, crop acreages, and/or producer shares. This occurred
                             because FSA county office personnel did not properly apply program
                             provisions. Before payments were approved, FSA county offices
                             corrected the applications and prevented overpayments of
                             $47,041 and underpayments of $39,257.



1
    A revenue guarantee per acre is established rather than a yield guarantee per acre. Therefore, FSA and RMA needed a
procedure to convert dollars into a unit of production.
2
   The $223,307 savings were reported in audit no. 50801-9-Te, CLDAP in Louisiana – Phase II, as funds to be put to better use.

USDA/OIG-A/50801-3-KC                                                                                                Page 6
                 In California, the CLDAP prevented planting payment rates for snow,
                 snap, and English peas were excessive. The California State FSA
                 Office established the CLDAP payment rate for peas at 30 percent of
                 the average market price adjusted for unincurred expenses, even
                 though the NAP payment rate for peas was 11 percent of the market
                 price. The State office agreed with our finding and corrected the
                 payment factor. As a result, the San Luis Obispo County Office did
                 not issue overpayments totaling $18,963 to six producers.

                 In Stanislaus County, California, the CLDAP unharvested payment
                 factor for cherries was excessive. The California State FSA Office
                 established the unharvested rate for cherries at 65 percent of the
                 average market price rather than the correct rate of 45 percent. The
                 FSA State office promptly corrected the payment factor and
                 prevented six producers from receiving overpayments totaling
                 $33,121.

                 In Colorado, the CLDAP unharvested and prevented planting
                 payment factors for crops were excessive and would have resulted
                 in excessive CLDAP benefits. We found that the Colorado State
                 FSA Committee did not include machinery costs (depreciation,
                 wear and tear) when establishing the payment factors. Prior to the
                 issuance of program payments, the Colorado State FSA Office
                 issued a memorandum informing the county offices of the corrected
                 unharvested factors for calculating CLDAP payments and avoided
                 issuing overpayments to affected producers.

           In summary, the agencies timely delivered a new and complex disaster
           program. When program deficiencies were identified, FSA and RMA, with
           few exceptions, timely reacted and initiated corrective action on program
           deficiencies and any associated erroneous payments. On June 8, 1999,
           the Secretary of Agriculture recognized FSA and RMA employees for their
           efforts and services in helping farmers and ranchers get through the farm
           crisis. In view of the manner in which this program was delivered to
           farmers by FSA and RMA personnel, we encourage RMA and FSA to use
           the same proactive techniques and practices during the delivery of future
           programs involving their agencies.




USDA/OIG-A/50801-3-KC                                                        Page 7
    CHAPTER 2                 CLDAP POLICY DECISIONS RESULT IN PROGRAM
                              OVERPAYMENTS


                    Program managers did not adjust disaster assistance payments when
                    other program payments exceeded the expected gross returns 3 for the
                    crop and did not adjust payments that were based on inflated crop
                    insurance indemnities. We attributed these deficiencies, in part, to lack of
                    coordination between agencies on these issues and the unwillingness to
                    change the basis for CLDAP payments when inflated crop insurance
                    indemnities are involved.

                                      Producer     program      payments     (CLDAP
      FINDING NO. 2                   payments and crop insurance indemnities)
                                      were not limited to the producers’ expected
                                                                         4
PAYMENTS EXCEEDED EXPECTED gross returns for the disaster crop . FSA did
      GROSS RETURNS                   not develop procedures to limit disaster
                                      benefits to the value of the expected crop
         production. As a result, producers, insured at the 75 percent coverage level
         with unharvested production, received crop insurance and CLDAP benefits
         that exceeded their expected gross returns for the disaster crop. In our
         analysis of corn producers having crop insurance coverage at the
         75 percent level, we found that 29 producers received CLDAP and crop
         insurance benefits that exceeded their expected gross returns by a total of
         about $80,000.

                    On February 22, 1999, we first reported in Management Alert
                    50801-3-KC (1) that current program procedures did not provide a
                    methodology for ensuring that total program benefits including CLDAP
                    payments did not exceed the expected gross returns for the crops. On
                    March 24, 1999, the agencies’ responded that a formula to determine the
                    cap was being developed. On June 2, 1999, the agencies further
                    responded that they had performed their own review of the CLDAP
                    payment formula for single year payments and that it was mathematically
                    possible, but highly unlikely, that a combination of CLDAP payments and
                    insurance indemnities would exceed a producer’s expected gross returns
                    for the crop. FSA believed that adequate safeguards to prevent excessive
                    payments were in place and that producers would not exceed their
                    expected gross returns. The safeguards included the payment limitation of
                    $80,000, gross income criteria, unharvested and prevented planting

3
    The producer’s expected level of income to be generated from producing the crop.
4
    Federal Register, Vol. 64, No. 72, Thursday, April 15, 1999, 7 CFR Part 1477 provides, in part, that "No person shall receive
disaster benefits under this part in an amount that exceeds the value of the expected production for the relevant period determined by
the Commodity Credit Corporation (CCC)."

USDA/OIG-A/50801-3-KC                                                                                                     Page 8
                   payment factors, and the 85 percent national factor applied to all payments.
                   Therefore, for these reasons, FSA did not establish a producer gross return
                   cap for the CLDAP.

                   As part of our review, we examined 570 crop insurance policies for the
                   1998 corn crop at the 75 percent coverage level with indemnities and
                   unharvested production.5 Our review showed that 29 producers received
                   CLDAP payments and crop insurance indemnities that exceeded their
                   expected gross returns by an average of about $2,749 per producer. For
                   example, one producer with a 50 percent share in 584.4 acres of corn had
                   expected gross returns 6 of about $73,000 for the crop.7 However, the
                   producer received over $79,000 in CLDAP and crop insurance benefits for
                   the 1998 corn crop or about $6,000 more than the expected gross return for
                   the crop.

                   Both agencies, in the past, placed limits on program payments when the
                   total exceeded the producers’ expected gross returns. Federal Crop
                   Insurance Corporation (FCIC) Handbook 18010, section 4D(2)(a) provides
                   that eligible insured producers may receive crop insurance indemnities and
                   any other U.S. Department of Agriculture (USDA) program benefits for the
                   same loss; however, the total benefit may not exceed the amount of the
                   actual loss sustained by the insured. FSA is responsible for making
                   additional payments due after considering the amount of crop insurance
                   indemnity received. FSA program procedures8 also provided for payment
                   reductions when the sum of the crop insurance indemnity and the disaster
                   payment earned exceeded the producer’s expected gross returns.
                   However, FSA did not establish program procedure to implement the
                   regulations that provided for payment reductions when CLDAP and crop
                   insurance payments exceeded the producer’s expected gross returns for
                   the crop.

                   We concluded that some producers did receive CLDAP benefits in excess
                   of their expected gross return for the crop and that FSA did not prescribe
                   program procedures to implement the excessive benefits provisions of the
                   CLDAP regulations. FSA needs to develop procedures to ensure that any
                   future disaster program limits the total program payments to the expected
                   gross returns for the disaster crop.




5
    Only one CLDAP payment was made for producers with multiple disaster crops. Therefore, we only determined if CLDAP and
crop insurance payments exceeded expected gross returns for the disaster crop when corn was the only eligible crop.
6
   FSA Handbook 1-PAD (Rev 2) Amend 24, par. 85C, dated August 30, 1993 - Expected gross income be determined by:
multiplying the disaster payment acres X the disaster payment yield X the payment rate X the producer share.
7
  584.4 acres X 96 bushel yield X $2.60 price X 50 percent share = $72,933.
8
  FSA Handbook 1-PAD (Rev 2) Amend 24 par. 85D dated August 30, 1993.

USDA/OIG-A/50801-3-KC                                                                                           Page 9
                                                To the FSA Administrator:
    RECOMMENDATION NO. 1
                                                 Implement regulations and procedures to limit
                                                 disaster payments to the value of a producer’s
                    expected gross return for the crop.

                    FSA Response

                    In its written comments on the draft report (see exhibit D), FSA did not
                    agree with the methodology used by OIG to determine expected gross
                    returns for the crop and stated that only a small percentage of producers
                    would be effected. FSA also stated that to reduce disaster payments for
                    those producers who purchased Federal crop insurance at the 75 percent
                    level would directly conflict with the intent of Congress to utilize the
                    disaster program to promote the purchase of buy-up crop insurance. FSA
                    determined that adequate safeguards were in place to prevent producers
                    from exceeding their expected gross 1998 return for the crop by taking
                    into account: (1) 1998 actual market prices, (2) FSA $80,000 payment
                    limitation, (3) FSA gross income restrictions, (4) FSA unharvested and
                    prevented planting factors, and (5) FSA maximum loss levels.

                    OIG Position

                    The expected gross returns methodology and the results of our finding
                    were discussed with FSA personnel during the audit. FSA personnel
                    stated that they did not have a documented formula for determining
                    expected gross returns for the CLDAP but agreed that some producers
                    could receive benefits in excess of their expected gross returns. We do
                    not believe that limiting CLDAP payments to the expected gross returns
                    for the crop would directly conflict with the intent of Congress to promote
                    the purchase of crop insurance because $400 million of the disaster
                    funding was specifically set aside to promote the purchase of crop
                    insurance for the 1999 crop year. In addition, some of the factors used by
                    FSA to evaluate CLDAP payments would not preclude producers from
                    receiving crop insurance indemnities and CLDAP benefits in excess of
                    their expected gross returns (i.e., the payment limitation, gross income,
                    etc.).

                    We continue to believe that, for future disaster programs, FSA needs to
                    implement regulations and procedures to limit the level of disaster
                    payments to the producer’s expected gross return for the crop. These
                    regulations and procedures should be consistent with FCIC procedures9
                    already in place that limit total benefits to the amount of the actual loss
                    sustained by the insured. The Act provided for the CLDAP funds to be

9
    FCIC Handbook 18010, section 4D(2)(a).

USDA/OIG-A/50801-3-KC                                                                 Page 10
                   distributed in a fair and equitable manner to producers who incurred crop
                   losses. However, some producers were allowed to receive total disaster
                   benefits in excess of their losses. The excessive benefits were paid at the
                   expense of all CLDAP participants because the CLDAP payments were
                   factored downward so that appropriations were not exceeded.

                   To reach a management decision we need to be advised that for future
                   disaster programs FSA will, as appropriate, implement regulations and
                   procedures to limit disaster payments to the value of a producer’s
                   expected gross return for the crop. We also need a copy of FSA’s
                   evaluation performed showing that adequate safeguards were in place to
                   prevent producers from exceeding their 1998 expected gross returns for a
                   crop.

                                         Producers received CLDAP payments that
          FINDING NO. 3                  were based on improper crop loss
                                         determinations and inflated crop insurance
      UNSUPPORTED PAYMENTS               indemnities.       FSA and RMA did not act
                                         promptly to prevent the improper CLDAP
             payments even though they were aware early in the development of this
             program that the supporting crop insurance indemnities were excessive for
             certain popcorn, corn, and pima cotton producers in Texas. As a result,
             producers who received about $20 million in improper crop insurance
             indemnities also received millions of dollars in excessive CLDAP benefits.

                   On February 22, 1999, we initially reported to FSA and RMA in
                   Management Alert 50801-3-KC (1) that several producers in Texas
                   received improper pima cotton, popcorn, and corn indemnities of more than
                   $20 million in 1998 because RMA approved yields that were too high for the
                   insured crops. If no action was taken, we reported that millions of dollars in
                   CLDAP payments would be issued to these producers in addition to the
                   inflated crop insurance indemnities. For example, one producer received a
                   $135,209 indemnity for his non-irrigated pima cotton crop even though it
                   was not feasible to produce cotton without irrigation in the county. This
                   same producer was also eligible to receive a $67,920 ($80,00010 x
                   .849 factor) CLDAP payment. In their June 2, 1999, response, the
                   agencies stated that they had made a policy decision to make CLDAP
                   payments based on crop insurance indemnities of record and that CLDAP
                   payments to producers who received improper indemnities for the cited
                   commodities would be made in accordance with existing regulations
                   because:

                   •        Office of the General Counsel (OGC) stated there was no basis to
                            recover the indemnities paid in the Texas counties in 1998. Since
                            RMA cannot recover the excessive indemnities, the agencies would

10
     The CLDAP payment limitation was $80,000.

USDA/OIG-A/50801-3-KC                                                                   Page 11
                              need to amend the CLDAP regulations to not use the indemnities as
                              a basis for multi-year payments. FSA and RMA personnel also
                              stated that revising the regulation prior to distribution of the expected
                              disaster assistance payments is impractical, as it would require a
                              fundamental redesign of the CLDAP structure.

                    •         The program structure had been widely publicized and understood
                              by producers for many months. Producers have used letters from
                              FSA county offices to secure financing, and withdrawing portions of
                              the program from some producers could create unintended
                              consequences and would certainly result in criticism for late program
                              changes.

                    •         The final CLDAP regulations were thoroughly reviewed and
                              approved by all responsible parties before they were published on
                              April 15, 1999.

                    •         The affected producers clearly suffered from a disaster in 1998 and
                              would be entitled to a partial payment based on their history of
                              planting other crops in the past even if they had not received
                              indemnities on the questioned guarantees. After calculating the
                              difference between what they otherwise would have received versus
                              the actual indemnities paid in 1998, the amount of funds questioned
                              is considerably less than indicated by OIG.11

                    We disagree with the agencies’ policy decision to use the inflated crop
                    insurance indemnities to make excessive CLDAP payments. The inflated
                    indemnities were used to calculate both multi-year and single-year CLDAP
                    payments.12 The excessive CLDAP payments only involved about 491 crop
                    insurance policies on three crops in eight counties in Texas and would not
                    have required a fundamental redesign of the CLDAP structure as indicated
                    by the agencies. In addition, OIG believes that the estimates of the CLDAP
                    overpayments are reasonable because the producers could not produce
                    nonirrigated crops in these areas and losses were 100 percent certain even
                    in normal crop years.

                    At a meeting in May 1999 with representatives from OIG, RMA, FSA, the
                    OGC, and the Office of the Under Secretary for Farm and Foreign
                    Agricultural Services, OGC clarified its earlier position and stated that it was
                    a policy matter as to whether or not the inflated crop insurance indemnities
                    could be restricted (and therefore, potentially the amount of CLDAP
                    payments). However, such action would require the regulations to indicate
                    that such adjustments could be applied. FSA and RMA officials stated that

11
     OIG later found that the agency did not have any calculations supporting this statement.
12
     The single year CLDAP payment was 65 percent versus 25 percent of the average insurance indemnity and NAP payments for
the multi-year CLDAP payment.

USDA/OIG-A/50801-3-KC                                                                                          Page 12
           since they could not restrict 1998 CLDAP payments without regulations
           authorizing such adjustments and they could not process the regulatory
           and/or procedural changes by the scheduled date of payments to
           producers, they decided not to adjust the 1998 CLDAP payments that were
           based on the excessive indemnities. Both agencies agreed that if another
           comparable crop disaster assistance program were authorized in the future
           they would ensure that regulations authorizing such adjustments would be
           implemented.

           Based on this reassurance from these two agencies that future disaster
           assistance programs would authorize the adjustment of excessive
           payments, we agreed that no further action by FSA and RMA was required
           on the 1998 CLDAP payments. But the agencies would need to amend
           procedures for any future disaster assistance programs by adjusting the
           disaster payments in cases where inflated or erroneous crop insurance
           indemnities could be used as a basis for payment.

                                       To the FSA and RMA Administrators:
 RECOMMENDATION NO. 2
                                      Develop procedures and regulations that adjust
                                      payments for any cases where inflated or
           erroneous crop insurance indemnities are used as a basis for payment in
           future disaster programs.

           FSA & RMA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           they agreed to grant authority to county committees to change download
           data any time RMA provides written notification to FSA indicating
           excessive indemnities have been paid as a result of erroneous insurance
           data. Such authority would only be granted in specific areas indicated by
           RMA.

           In its written comments on the draft report (see exhibit E), RMA stated that
           in the event of enactment of another disaster program, RMA would at that
           time issue procedures to address the recommendation, to the extent that
           inflated or erroneous indemnities are known.

           OIG Position

           We do not agree with RMA’s proposed corrective action. RMA needs to
           work with FSA to develop a process to ensure that inflated or erroneous
           crop insurance indemnities are reported to FSA in a timely manner. Also,
           RMA’s written response is inconsistent with correspondence dated
           May 1, 2000, in which RMA agreed to identify and catalog instances
           where program design or errors resulted in the potential for excessive
           indemnities for the 1999 crop year to assist in ensuring that all identified

USDA/OIG-A/50801-3-KC                                                         Page 13
           problem areas are monitored and corrected for the future. In addition to
           identifying and cataloging potential excessive indemnities, RMA needs to
           prescribe procedures on how to provide information on excessive
           indemnities to FSA so that the disaster payments can be adjusted.

           To reach a management decision we need to be advised that FSA and
           RMA will develop and implement procedures that provide for the
           identification of excessive indemnities and the adjustment of disaster
           program payments that are based on erroneous crop insurance
           indemnities. We will also need the timeframes necessary to implement
           corrective action.




USDA/OIG-A/50801-3-KC                                                     Page 14
     CHAPTER 3                 PRODUCERS DID NOT CERTIFY CORRECTLY


                                                Producers did not always accurately report
                 FINDING NO. 4                  their gross revenues, eligible acreages, crop
                                                production, crop shares, causes of loss,
                                                insurance purchase requirements, or other
                                                program requirements. This occurred primarily
                    because they overlooked or misunderstood program requirements. These
                    producers were scheduled to receive or received CLDAP and NAP
                    overpayments totaling about $821,54813 and excessive crop insurance
                    indemnities and loan deficiency program (LDP) payments totaling $36,605.

                      Program regulations provide that a person shall be ineligible to receive
                      disaster assistance if it is determined by the State or county committee or
                      an official of FSA that such person has misrepresented any fact affecting a
                      program determination. If disaster benefits were received because of
                      erroneous information or a miscalculation, the assistance or payment
                      should be recomputed and any excess refunded with applicable interest. 14

                      We reviewed 1,855 of 43,009 CLDAP, and 54 of 661, 1998 NAP
                      applications in 40 counties located in 14 States and found that 58 producers
                      improperly certified information on program documents. We referred five
                      producers and one crop insurance agent to OIG Investigations (OIG-I) for
                      further review for potential misrepresentations on their crop insurance
                      claims and/or disaster applications. The same conditions have been
                      reported in prior OIG audits of disaster assistance programs and continue to
                      result in program overpayments. The following are examples of our audit
                      results:

                      •         Eight producers did not correctly certify to the $2.5 million CLDAP
                                gross revenue limitation. The producers received or were scheduled
                                to receive $363,520 in improper CLDAP payments. One of the eight
                                producers was a county committee chairman who received or was
                                scheduled to receive $67,920 in CLDAP benefits.

                      •         Two producers did not correctly certify to the $2 million NAP gross
                                revenue limitation and received improper NAP payments totaling
                                $45,107.

                      •         Twelve producers did not accurately report the number of acres
                                eligible for the CLDAP and NAP. The producers were scheduled to

13
     $135,609 of this $821,548 was reported in Finding No. 1.
14
     Federal Register/Vol. 64, No. 72/Thursday, April 15, 1999, Subsection 1477.109(c), (f), and (g).

USDA/OIG-A/50801-3-KC                                                                                   Page 15
                 receive or received excessive CLDAP and NAP payments of
                 $77,477 and $190,864, respectively.

           •     Ten producers did not correctly certify their production and were
                 scheduled to receive or received improper benefits of about
                 $26,413 for CLDAP and $1,178 for NAP. Two of the 10 producers
                 were referred to the OIG-I for further review because the producers
                 reported different production quantities for crop insurance than they
                 did for the LDP.

           •     Three producers did not accurately report their crop shares for the
                 CLDAP and NAP and were scheduled to receive or received about
                 $24,203 in improper CLDAP payments and $55,079 in improper
                 NAP payments.

           •     A crop insurance agent and two producers created excessive yield
                 histories for crop insurance purposes and received improper
                 indemnities of $114,931. As a result of the excessive indemnities,
                 the producers were scheduled to receive $21,468 in improper
                 CLDAP benefits. We referred this case to the OIG-I and RMA
                 compliance officials for further review.

           •     Three producers submitted CLDAP applications for ineligible causes
                 of loss and were scheduled to receive about $16,239 in improper
                 CLDAP payments.

           •     Seventeen producers did not properly complete form
                 CCC-541, Statement of Agreement to Purchase Crop Insurance, and
                 may not have purchased crop insurance as required.

           •     Four producers misrepresented their production to increase        their
                 crop insurance indemnities and FSA LDP payments.                  Two
                 producers received improper indemnities of $34,247 and             two
                 producers received excessive LDP payments totaling $2,358.        Two
                 of the producers were referred to the OIG-I for further review.

           In conclusion, most producers properly completed program applications
           and received proper program payments. However, as reported in prior
           audits of disaster assistance programs, we still found producers who were
           overpaid because they improperly certified to or misrepresented key
           program information.        FSA needs to emphasize to producers the
           importance of providing correct information and making accurate
           certifications and to direct compliance reviews towards areas that continue
           to result in producer overpayments.          Also, FSA needs to correct
           $394,746 in CLDAP overpayments resulting from county office errors that
           we reported in the Statement of Conditions issued to the FSA State
           Offices.

USDA/OIG-A/50801-3-KC                                                        Page 16
                                       To the FSA Administrator:
 RECOMMENDATION NO. 3
                                      Remind county offices to inform all applicants
                                      of the importance of providing correct
           information and making correct certifications for future disaster assistance
           programs.    Also, instruct FSA compliance personnel to direct their
           1999 Crop Disaster Program (CDP) compliance reviews toward the areas
           where most program errors occurred.

           FSA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           they would continue to emphasize the importance of accurate producer
           certifications and associated adverse consequence of false data. FSA
           compliance personnel developed a random sample selection process to
           target county offices with the greatest probability of problems for the
           1999 CDP. FSA directed compliance reviews toward county offices with
           the highest volume of applications in each State and where RMA records
           were not available because the crops were not insured.

           OIG Position

           We agree with the actions taken to target compliance reviews to county
           offices with the greatest probability of problems and the plan to direct
           compliance reviews toward the most vulnerable areas. However, FSA
           needs to provide written guidance to county offices for improving producer
           provided information and certifications.

           To reach a management decision we need to be advised of the corrective
           action planned or taken to remind county offices to inform all applicants of
           the importance of providing correct information and making correct
           certifications for future disaster assistance programs and the timeframe to
           implement the corrective action.

                                       To the FSA Administrator:
 RECOMMENDATION NO. 4
                                     Instruct the FSA State offices to correct the
                                     CLDAP and NAP program overpayments and
           underpayments as described in the Statements of Conditions.

           FSA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           by July 15, 2000, FSA would contact each applicable State office to
           ensure that all required follow-up action has been completed.


USDA/OIG-A/50801-3-KC                                                         Page 17
           OIG Position

           To reach a management decision we need documentation for each
           overpayment showing that a bill for collection has been sent and the
           amount has been entered as a receivable in the agency’s accounting
           records, or evidence that the overpayment has been collected. We also
           need to be advised that underpayments have been corrected.

                                       To the FSA Administrator:
 RECOMMENDATION NO. 5
                                       Instruct the State offices to coordinate with
                                       OIG-I for those cases referred for further review
           and determine if the producers made misrepresentations on their CLDAP or
           LDP applications and to recover any CLDAP or LDP overpayments.

           FSA Response

           In its written comments on the draft report (see exhibit D), FSA agreed to
           implement the recommendation as presented.

           OIG Position

           To reach a management decision we need to be advised of the action
           taken on the cases referred for investigation and provided documentation
           showing that a bill for collection has been sent and the amount has been
           entered as a receivable in the agency’s accounting records, or evidence
           that the CLDAP or LDP overpayments have been collected from the cited
           producers.

                                       To the RMA Administrator:
 RECOMMENDATION NO. 6
                                        Follow up and determine if the producers cited
                                        in the Statements of Conditions issued to the
           St. Paul and Kansas City Compliance Offices misrepresented their
           1998 production in order to increase their crop insurance indemnities. Also,
           coordinate with OIG-I on the case involving the crop insurance agent and
           two producers and recover any overpaid indemnities as needed.

           RMA Response

           In its written comments on the draft report (see exhibit E), RMA concurred
           with the recommendation and will provide copies of the final
           determinations made by each compliance office.




USDA/OIG-A/50801-3-KC                                                          Page 18
           OIG Position

           To reach a management decision we need to be advised of the action
           taken on the cases referred to RMA compliance and OIG-I and provided
           documentation showing that a bill for collection has been sent and the
           amount has been entered as a receivable in the agency’s accounting
           records, or evidence that the overpayment has been collected.




USDA/OIG-A/50801-3-KC                                                    Page 19
 CHAPTER 4                  SOME PROGRAM AREAS NEEDED IMPROVEMENTS

                   Program managers did not always effectively apply certain program
                   provisions. They did not correctly establish liquidated damages in the
                   CLDAP contract; restrict payments to producers on RMA’s ineligible
                   producer list; establish appropriate program payment factors; preclude
                   producers from receiving both single-year and multi-year CLDAP payments;
                   make appropriate gross revenue determinations; and ensure that claims for
                   NAP assistance were based on verifiable disaster losses. This occurred
                   because of oversight by FSA personnel and because they did not always
                   coordinate the development of program payment factors and the
                   processing of payments to multi-county producers. These deficiencies
                   contributed to program waste and abuse and reduced the effectiveness of
                   the program payments.

                                      FSA did not include in the CLDAP contract the
        FINDING NO. 5                 amount      of    liquidated   damages      for
                                      noncompliance with the crop insurance linkage
LIQUIDATED DAMAGES WERE NOT requirements. FSA personnel stated that the
  SPECIFIED IN THE CONTRACT           omission was an agency oversight. As a
                                      result, producers were not adequately informed
           of the liquidated damages, and significant noncompliance existed with this
           requirement in the 1998 CLDAP. RMA and FSA records show that
           48,785 producers were required to purchase crop insurance for 1999 and
           2000 to comply with the crop insurance linkage requirements. However, as
           of January 20, 2000, about 21,400 producers who received about
           $70 million in CLDAP payments had not purchased crop insurance.

                   The Act15 provides that the amount of the liquidated damages shall be
                   specified in the contract agreed to by the producer. However, forms
                   CCC-540, Crop Loss Disaster Assistance Program, CCC-540A Notice of
                   Loss/Production Worksheet 1998 Crop Loss Disaster Assistance, and
                   CCC-541, Statement of Agreement to Purchase Crop Insurance, did not
                   show the amount of liquidated damages that would be assessed for non-
                   compliance with the crop insurance linkage requirements. FSA National
                   Office personnel and OGC personnel agreed that the CLDAP contract did
                   not contain the required statement. FSA personnel stated that they had
                   overlooked the requirement while OGC personnel attributed the omission to
                   the short time frame for implementing the program.

                   As of January 20, 2000, FSA and RMA have identified 21,363 producers
                   who received 1998 CLDAP payments but did not have a 1999 crop

15
     The Omnibus Consolidated and Emergency Supplemental Appropriations Act, Public Law 105-277, dated October 21, 1998.

USDA/OIG-A/50801-3-KC                                                                                         Page 20
                   insurance policy on file in RMA’s database. This number does not include
                   all producers who were paid for uninsured crops in 1998 and were required
                   to purchase crop insurance in 1999 and 2000 on all crops of economic
                   significance in their farming operations.16 FSA did not collect sufficient
                   information to identify these producers when they processed the CLDAP
                   applications for payment. FSA personnel advised us that they planned to
                   follow up on the noncompliance cases in February 2000. They intend to
                   assess liquidated damages in accordance with program procedures.

                   In conclusion, FSA did not fully implement the liquidated damage provisions
                   for noncompliance with the crop insurance linkage requirements as required
                   under the Act. Therefore, participating producers were not properly notified
                   of the liquidated damages provision. Significant noncompliance with this
                   requirement existed in the 1998 CLDAP. Therefore, FSA and RMA need to
                   work together to improve producer compliance with this program provision.
                   FSA recognized the omission of the required statement on the 1998 CLDAP
                   contract and for the 1999 CDP the liquidated damages provisions were
                   included on form CCC-549, Crop Insurance Agreement

                                                        To the FSA and RMA Administrators:
     RECOMMENDATION NO. 7
                                                        Jointly develop and implement a plan to
                                                        improve compliance with the crop insurance
                   linkage requirement.

                   FSA & RMA Response

                   In its written comments on the draft report (see exhibit D), FSA stated that
                   linkage requirement procedures were changed for the 1999 CDP. The
                   linkage requirement was made crop specific which will increase FSA’s
                   ability to target producers who have not fulfilled their linkage requirement.
                   FSA and RMA will merge files to identify producers who received disaster
                   program payments but who have no corresponding active insurance file
                   for the required following years.

                   In its written comments on the draft report (see exhibit E), RMA concurred
                   with the recommendation and with FSA’s proposed corrective action.

                   OIG Position

                   We agree with the proposed corrective action. To reach a management
                   decision we need to be advised of the timeframe for implementation of the
                   corrective action.




16
     7 CFR Part 1477.108 and FSA Handbook 1-DAP, Amendment 12, par. 1001 A.

USDA/OIG-A/50801-3-KC                                                                     Page 21
                                     Producers ineligible for crop insurance
      FINDING NO. 6                  because they were indebted for prior year
                                     premiums were allowed to receive CLDAP
   PAYMENTS TO INELIGIBLE            benefits, because FSA and RMA program
        PRODUCERS                    managers did not implement controls to
                                     prevent the ineligible producers from receiving
         CLDAP payments. In effect, the producers were not required to pay their
         prior year debts and establish their eligibility for CLDAP payments. We
         determined that 969 of the 1,118 ineligible producers listed on RMA records
         were improperly paid about $8.8 million in CLDAP payments.

           FSA Handbook 1-DAP, paragraph 1001A, dated March 24, 1999, provided
           that producers who are ineligible to purchase crop insurance because of
           indebtedness shall not be eligible to receive CLDAP payments. FSA and
           RMA personnel stated that even though the procedures were in place, the
           agencies decided to allow the ineligible producers to sign-up for the
           program. This decision was made because the program sign-up period
           ended before the crop insurance sales closing date of March 15, and the
           agencies did not want to discourage producers from signing-up for the
           program. They maintained that the producers could easily become eligible
           for CLDAP by paying their crop insurance debt before the sales closing
           date. However, the CLDAP sign-up period was extended to April 16, 1999,
           which was beyond the latest crop insurance sales closing date for buy up
           policies and shortly before the latest date to purchase catastrophic
           coverage of April 28, 1999.

           When the 1999 crop insurance sales closing date ended (April 8,1999), the
           producers with delinquent crop insurance debts were essentially ineligible
           for CLDAP benefits. However, FSA began making CLDAP payments about
           30 days after the last sales closing date and did not require producers on
           the ineligible list to show proof of eligibility prior to disbursing payments.
           FSA personnel stated that ineligible producers receiving CLDAP payments
           would be identified during the crop insurance linkage spot checks and will
           be assessed liquidated damages for not having crop insurance. We
           question whether the producers are eligible for any benefits since they
           cannot satisfy a basic eligibility requirement.

           We obtained RMA’s list of ineligible producers for February and
           June 1999 and identified the producers that remained on the ineligible list
           after the crop insurance sales closing date. We contacted the reinsured
           companies to confirm that the producers were ineligible to purchase crop
           insurance according to their records. We identified 1,118 producers that
           were potentially ineligible for CLDAP because of an outstanding crop
           insurance debt. We compared these producers to RMA’s policy database
           and found that 139 of the producers had either paid their crop insurance
           debt prior to the sales closing date, were improperly included on the list due
           to a data transmission error, or were in bankruptcy. The remaining

USDA/OIG-A/50801-3-KC                                                           Page 22
           979 producers should not have received CLDAP payments. However,
           CLDAP payment files show that 969 producers received CLDAP payments
           totaling   $8,793,695     ($5,158,280      single-year   payments     and
           $3,635,415 multi-year payments) and 10 producers received no CLDAP
           payments. Further analysis of the ineligible list showed that some of the
           producers had been on the list for several years. The list included
           23 producers from 1990 to 1996, 393 from 1997, 258 from 1998, and
           295 from 1999 determinations, respectively.

           FSA did not implement procedures to preclude producers on RMA’s
           ineligible list from improperly receiving CLDAP payments. The producers
           were ineligible to receive CLDAP benefits because they could not
           purchase crop insurance, which is a basic requirement for receiving the
           CLDAP payments. Therefore, these producers should be required to
           repay the entire amount of their CLDAP payment. FSA also needs to
           implement procedures to prohibit the payment of disaster payments until
           producers have fully established their eligibility. Implementation of all
           CLDAP eligibility requirements could have significantly reduced the
           number of producers receiving CLDAP overpayments.

                                       To the FSA Administrator:
 RECOMMENDATION NO. 8
                                     Instruct the State offices to review the
                                     producers who did not purchase crop
           insurance and recover any unearned CLDAP benefits, or assess liquidated
           damages, as appropriate.

           FSA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           FSA and RMA merged computer files to identify producers who received
           CLDAP program payments and had no corresponding active insurance file
           for the required following years. On February 3, 2000, FSA issued Notice
           DAP-65 that outlined procedures for county offices to follow for
           determining compliance with crop insurance linkage requirements. On
           June 23, 2000, FSA issued Notice DAP-79 that provided for State and
           county offices to document the results of compliance with the crop
           insurance linkage requirements for CLDAP.

           OIG Position

           To reach a management decision we need documentation showing the
           results of FSA’s compliance reviews of crop insurance linkage
           requirements for the 1998 CLDAP. We also need documentation showing
           that a bill for collection has been sent and the amount has been entered
           as a receivable in the agency’s accounting records, or evidence that the
           overpayment has been collected for noncompliance determinations.

USDA/OIG-A/50801-3-KC                                                         Page 23
                                                          To the FSA Administrator:
     RECOMMENDATION NO. 9
                                             Require producers to fully establish their
                                             eligibility for disaster benefits including the
                    purchase of required crop insurance policies before issuing program
                    payments to them.

                    FSA Response

                    In its written comments on the draft report (see exhibit D), FSA stated that
                    the 1998 CLDAP and the 1999 CDP have been completed and no
                    changes are possible for those programs at this time. FSA stated that
                    upon passage of new disaster legislation they would review the legality
                    and timeliness of requiring producers to establish their eligibility before
                    issuing program benefits to them.

                    OIG Position

                    We accept the management decision.

                                     Disaster program payment factors for CLDAP
       FINDING NO. 7                 and NAP in Texas, California, and Colorado
                                     were improperly established. FSA National
 INCORRECT PAYMENT FACTORS           and State office personnel did not coordinate
        ESTABLISHED                  the establishment of the rates and did not
                                     reconcile the established payment rates
          between the two disaster programs. As a result, producers in Texas
          received questionable CLDAP payments on 16 crops where the CLDAP
          payment factors were higher than those for the NAP.

                    CLDAP procedures17 require the State committees to establish prices for
                    noninsurable crops that need a new or modified price. In addition, for each
                    crop produced with a significant and variable harvesting expense, the State
                    committee shall establish unharvested and prevented planting payment
                    factors using guidelines outlined in FSA Handbook 1-NAP. The State
                    committee will submit the payment factors to the FSA National Office for
                    concurrence.

                    As reported in Finding No.1, the CLDAP prevented planting payment rates
                    for snow, snap, and English peas and the unharvested payment factor for
                    cherries in California were established at different levels than those used for
                    the NAP. Also, the Colorado State FSA Committee did not include
                    machinery costs (depreciation wear and tear) when establishing the
                    payment factors. Our review also showed that the Texas State FSA Office

17
     FSA Handbook 1-DAP, Amendment 9, par.1057, dated February 9, 1999, and Amendment 12, par. 1056, dated March 24, 1999.

USDA/OIG-A/50801-3-KC                                                                                         Page 24
           did not ensure that payment factors for CLDAP and NAP were established
           at the same level. We identified 21 crops that had different levels of
           prevented planting and/or unharvested factors established for each
           program. The following table illustrates the variances we found in a sample
           of 5 payment factors.


                           PAYMENT FACTOR DIFFERENCES
                                 PREVENTED       UNNHARVESTED
                             PLANTING PAYMENT        PAYMENT
                                   FACTOR             FACTOR
               CROP         NAP CLDAP DIFF NAP CLDAP DIFF.
               GRAIN          .18     .55  .37   .70     .86 .16
             SORGHUM
                FIGS            0          0        0     .49      .60       .11
               MILLET         .10        .55      .45     .70      .70         0
             SOYBEANS         .40        .50      .10     .85      .80      -.05
             TOMATOES         .15        .38      .23     .45      .45         0

           In addition to the variances found between the payment factors established
           for the two disaster programs, we also found differences in payment factors
           between counties in Texas. For example, the CLDAP unharvested
           payment factor for cattail millet in Burleson County, Texas, and the NAP
           unharvested payment factor for alfalfa in Floyd County, Texas, were
           established at different levels when compared with the other counties in the
           State (i.e., .80 compared to .70 established for cattail millet and
           .70 compared to .75 for alfalfa).

           Texas State Office personnel generally agreed that the payment factors for
           CLDAP and NAP should be similar. They stated that the differences in the
           payment factors occurred because the State office did not coordinate the
           establishment of the payment factors internally. The Production Adjustment
           Division established the factors for CLDAP and Compliance/Risk
           Management Division established the factor for the NAP.                On
           September 14, 1999, FSA National Office personnel stated that they had
           reviewed the submitted payment rates and factors to ensure they were
           established at a reasonable level but did not compare them to rates
           established for other programs.

           In summary, we identified inconsistent payment factors for similar programs
           in Texas, California, and Colorado that created erroneous payments for the
           affected producers. In the future, FSA needs to reconcile payment data for
           multiple programs and resolve differences prior to making program
           payments.




USDA/OIG-A/50801-3-KC                                                         Page 25
                                                             To the FSA Administrator:
 RECOMMENDATION NO. 10
                                                Direct FSA State office personnel to coordinate
                                                internally and reconcile the development of
                    crop payment factors and rates used for similar disaster programs.

                    FSA Response

                    In its written comments on the draft report (see exhibit D), FSA stated that
                    to increase program compatibility between the 1999 CDP and the NAP
                    program, NAP procedures were adopted for the 1999 CDP. FSA required
                    unharvested and prevented planting factors to be the same throughout the
                    State and equal to the factors used under the NAP program. FSA also
                    agreed that, to the extent allowed by disaster legislation, payment rates
                    should be consistent among programs.

                    OIG Position

                    FSA adopted one set of program procedures to increase program
                    compatibility between disaster programs for the 1999 CDP. The FSA
                    National office required that 1999 CDP factors be the same throughout the
                    State and be equal to NAP factors. We accept the management decision.

                                     Producers received both single-year and multi-
       FINDING NO. 8                 year CLDAP program payments.              This
                                     occurred, in part, because FSA county offices
 PRODUCERS RECEIVED SINGLE           did not always coordinate multi-county
  AND MULTI-YEAR PAYMENTS            producer payments with the control county and
                                     FSA’s automated system allowed producers to
          receive disaster benefits from both single-year and multi-year CLDAP
          programs under one producer’s identification number. We identified
          47 producers who were overpaid $292,589 in CLDAP payments,
          11 producers who were underpaid $70,165, and 5 producers who were paid
          from the wrong fund.

                    Program regulations 18 provide that a producer may receive disaster benefits
                    under either the single-year or multi-year CLDAP provisions, but not both.
                    The regulation also provides that a producer qualifying for disaster benefits
                    under both the single-year and multi-year programs may receive payment
                    from the program that provides the greatest benefit to the producer.

                    Our review of the program payment data files disclosed 63 producers who
                    received payments for both single-year and multi-year losses. We
                    determined that 55 of the producers received an initial payment from the
                    wrong program funds (single-year or multi-year) because the producer’s

18
     Federal Register Vol. 64, No. 72, dated April 15, 1999, 7 CFR Part 1477.106(a) and (b).

USDA/OIG-A/50801-3-KC                                                                          Page 26
                     most beneficial program changed later. When the producer’s most
                     beneficial program changed, the final payment was made from a different
                     fund and the initial payment was not corrected in the automated system.
                     Twenty-four of these overpayments occurred when the producer had
                     multi-county interests and the control county changed as a result of a
                     change in the most beneficial program. We also found that one producer
                     was paid as an individual from the single-year program fund and then again
                     as a revocable trust from the multi-year program. Both payments were
                     issued under the same identification number. In addition, five payments
                     were made from the wrong fund, in one instance the entity members were
                     paid rather than the entity resulting in an underpayment, and one producer
                     initially received both a single-year and multi-year payment.

                     FSA program procedures19 provide that if a producer was inadvertently paid
                     from both programs, the initial payment will be listed on the overpayment
                     register and a notification letter will be mailed to the producer. The
                     procedures also provide for county offices to calculate overpayments for all
                     producers at least once every 60-calendar days to ensure that the finality
                     rule will not apply. On September 13, 1999, we contacted a county office
                     concerning payments to a producer from both the single-year and multi-
                     year program funds. FSA county office personnel stated that they were not
                     aware the producer had received an initial multi-year CLDAP payment on
                     June 4, 1999, and a revised most beneficial single-year CLDAP payment on
                     June 23, 1999, because the most beneficial payment was made by another
                     FSA county office. Further review disclosed that the producer was listed on
                     the FSA county office’s overpayment register and as the result of our
                     inquiry, the county office initiated collection of the overpayment. However,
                     in 10 days, the finality rule20 would have applied and FSA may not have
                     been able to collect the $22,475 overpayment.

                     In conclusion, FSA is aware of these cases and FSA county offices were
                     provided guidance to resolve the CLDAP overpayments. However, FSA
                     county offices did not always coordinate multi-county producer payments
                     with the control county and ensure that the payments were corrected.

                                                              To the FSA Administrator:
  RECOMMENDATION NO. 11
                                                 Follow up with FSA State offices and determine
                                                 if the CLDAP overpayments resulting from
                     duplicate benefits were properly resolved and any overpayments collected
                     or claims established as appropriate.



19
     FSA Handbook 1-DAP, Amend. 24, par. 1291 and 1292, dated July 14, 1999.
20
     A farmer need not repay an overpayment unless it is discovered within 90 days of the date of the payment or the application for
program benefit, fraud is involved, or the farmer was aware that an error had occurred.

USDA/OIG-A/50801-3-KC                                                                                                  Page 27
                    FSA Response

                    In its written comments on the draft report (see exhibit D), FSA stated that
                    additional requirements were placed upon District Directors to ensure the
                    overpayment process was followed in all county offices. In addition,
                    software modifications were made to “force” an overpayment register if it
                    has not been run in the previous 60 days.

                    OIG Position

                    To reach a management decision we need documentation showing that a
                    bill for collection has been sent and the amount has been entered as a
                    receivable in the agency’s accounting records, or evidence that the
                    overpayment has been collected.         We also need to be provided
                    documentation that underpayments have been corrected.

                                        In San Joaquin County, California, FSA
       FINDING NO. 9                    personnel did not properly make gross revenue
                                        determinations, and did not use the proper
INCORRECT FSA COUNTY OFFICE payment rate for cherries.                  This occurred
      DETERMINATIONS                    because   the COC   and county office personnel
                                        did not always follow program procedures. As
          a result, 10 of 44 applications reviewed were overpaid $448,006 in CLDAP
          and NAP benefits.

                    CLDAP and NAP program handbooks require COC members to review
                    county office records and use personal knowledge of the "person's" interest
                    to determine whether they [the COC] are satisfied that the "person" is not
                    likely to have exceeded the $2.5 million revenue limitation for CLDAP and
                    $2 million revenue limitation for NAP. The COC’s are also directed to
                    identify those "persons" for whom they [the COC] have insufficient
                    information to determine whether the qualifying gross revenue limitation has
                    been exceeded, and notify these “persons” that evidence of their eligibility
                    must be provided. The COC should ensure that no payment is issued to
                    any "person" who has not satisfactorily established eligibility for payment.21
                    FSA procedures require that NAP assistance for crops with a specific
                    intended use be based on the smaller of the approved average market price
                    established for either (1) the specific intended use reported, or (2) the
                    actual market or actual use for which more than 50 percent of the acreage's
                    harvested production is marketed.22 NAP guidance does not give State
                    committees, COC’s and their employees or representatives’ authority to



21
     FSA Handbooks, 1-DAP, Amendment 9, par. 1002 C, dated February 9, 1999, and 1-NAP, Amendment 7, paragraph 31 G, dated
September 1, 1998.
22
   FSA Handbook 1-NAP, Amendment 9, par. 174 B, dated November 20, 1998.

USDA/OIG-A/50801-3-KC                                                                                         Page 28
                      modify or waive any regulatory provisions or procedures applicable to
                      NAP.23

                      We reviewed 30 of 2,287 CLDAP, and 14 of 354, 1998 NAP applications in
                      San Joaquin County, California, and found that the COC and county office
                      personnel did not make correct gross revenue determinations and used
                      incorrect payment factors:

                      •         Seven CLDAP and NAP applicants exceeded the gross revenue
                                limitations for the programs. This occurred because the San Joaquin
                                COC did not follow up or take action on income documents provided
                                by the producers that indicated that the producers may have
                                exceeded the gross revenue threshold. We obtained additional
                                information from the applicants and confirmed that all seven
                                producers were ineligible for program benefits because they
                                exceeded the gross revenue limitation. The producers received
                                overpayments totaling $251,312.24

                      •         Three producers received excessive NAP payments for processed
                                cherries. This occurred because the FSA county executive director
                                used the fresh cherry market price of $2,310 per ton rather than the
                                processed cherry market price of $517 per ton. The county
                                executive director stated that the fresh cherry market price was used
                                because the NAP did not fairly compensate producers. As a result,
                                the producers were overpaid $196,694.25

                      We concluded that the COC and county office personnel did not always
                      follow program procedures and disbursed improper CLDAP and NAP
                      payments. The California State FSA Office needs to provide guidance to
                      the San Joaquin COC for determining if the qualifying gross revenue
                      limitation has been exceeded and to follow up on the program deficiencies.

                                                               To the FSA Administrator:
 RECOMMENDATION NO. 12
                                                   Require the California State FSA Office to
                                                   provide additional guidance to the San Joaquin
                      COC for determining if the gross revenue limitation has been exceeded and
                      to county office personnel on the use of payment rates.




23
     FSA Handbook 1-NAP, Amendment 7, par. 1 E, dated September 1, 1998.
24
     The 7 producers also incorrectly certified to their gross revenue (see Finding No. 4).
25
     The monetary amount is included in Findings Nos. 1 and 4.



USDA/OIG-A/50801-3-KC                                                                         Page 29
            FSA Response

            In its written comments on the draft report (see exhibit D), FSA stated that
            a county executive director was hired for the San Joaquin county FSA
            office and the California State FSA Office program specialist has provided
            training and instructions to the county executive director and the COC
            regarding all FSA provisions dealing with gross revenue limitations and
            program payment rates. The California State FSA Office also issued a
            State notice clarifying gross revenue issues to all of their counties.

            OIG Position

            We agree with the management decision.

                                        To the FSA Administrator:
 RECOMMENDAT ION NO. 13
                                        Follow up with the California State FSA Office
                                        to ensure that the improper program payments
            described in the Statement of Conditions were corrected or claims
            established as appropriate.

            FSA Response

            In its written comments on the draft report (see exhibit D), FSA stated that
            by July 15, 2000, FSA would contact each applicable State office to
            ensure that all required follow-up action has been completed.

            OIG Position

            To reach a management decision we will need documentation for each
            overpayment showing that a bill for collection has been sent and the
            amount has been entered as a receivable in the agency’s accounting
            records, or provided evidence that the overpayment has been collected.

                                      NAP claims in Lynn County, Texas, were
      FINDING NO. 10                  based on disaster losses that could not be
                                      verified. This occurred because the county's
  UNSUPPORTED NAP CLAIMS              disaster designation was approved 4 to
                                      12 months after the losses had occurred,
         producers did not timely file notices of loss, and field inspections were not
         always performed to verify existing crop losses. As a result, payments were
         made without reasonable assurance that the crop losses actually occurred
         and that the benefits paid were justified.

            To be eligible for disaster assistance, the producer must provide the FSA
            with a notice of loss within 15 calendar days after the disaster occurred or


USDA/OIG-A/50801-3-KC                                                          Page 30
                   the date damage to the crop becomes apparent to the producer.26 The
                   COC can accept late filed notices of loss if the reported disaster information
                   can be verified by inspection of the specific acreage involved. In addition, if
                   there is a question regarding the specific crop acreage or claimed disaster
                   condition, including the amount of acreage or inventory for value loss crops,
                   the FSA county office is required to make a field visit within 5 calendar days
                   after a notice of loss is filed.27

                   Our review showed that the Lynn FSA County Office had 151 NAP
                   applications for the 1998 crop year. We reviewed 10 of the applications for
                   peppers, peanuts, sudan grass, sunflowers, peas, corn, and pecans with
                   final planting dates for the crops ranging from June 10, 1998, through
                   July 15, 1998, and found the following.

                   •        The producers filed their notices of loss from July 28, 1998, through
                            March 9, 1999, with six producers filing their notices of loss after
                            January 15, 1999; 15 calendar days after the end of the STC-
                            designated disaster period. The State office did not waive the notice
                            of loss requirements.

                   •        A field inspection was not made for one application, and, in four
                            cases, the inspections were not made until March and April 1999,
                            when it was not possible to verify disaster losses.

                   •        In 1 of the 10 cases, the producer planted a crop after the final
                            planting date for that crop. The producer reported on Form
                            FSA-574, Request for Acreage/Disaster Credit, that sunflowers were
                            planted through July 4, 1998, which is after the June 30, 1998,
                            normal planting date.

                   FSA county office personnel acknowledged forms FSA-574 were not timely
                   filed. They said that because of the nature of the disaster conditions
                   (drought and heat), most of the producers were not aware of the extent of
                   their losses until after the crops failed. Therefore, on April 13, 1999, the
                   Lynn FSA County Office submitted a 1998 NAP area request to the State
                   office. On April 20, 1999, the Texas State Committee approved Lynn
                   County as a designated NAP area due to drought and excessive heat from
                   April through December of 1998. The disaster designation for losses in
                   Lynn County was approved approximately 4 months after the disaster
                   occurred. As of August 27, 1999, the Lynn FSA County Committee had not
                   approved any 1998 NAP applications.

                   In their response to our Statement of Conditions, Texas State FSA officials
                   disagreed that the untimely notices of loss for NAP were the result of the

26
     FSA Handbook 1-NAP, Amendment 2, par. 401 A, dated March 28, 1997.
27
     FSA Handbook 1-NAP, Amendment 9, paragraphs 401 B and E, dated November 20, 1998.

USDA/OIG-A/50801-3-KC                                                                    Page 31
           STC’s late approval of Lynn County’s disaster designation. A State office
           official believed that NAP procedures require producers to timely file notices
           of loss, regardless of the anticipated approval, or disapproval, of a NAP
           area and that the State office approval date should not be identified as a
           reason why notices of loss were not filed timely by producers. A Fact Sheet
           was developed by the Texas State FSA Office and distributed to counties in
           September 1999 to help county offices ensure producers understand the
           requirements for filing notices of loss and other producer responsibilities
           under the NAP provisions. FSA was conducting target reviews of the NAP
           throughout Texas and a report of the findings from these reviews will be
           used by the State FSA office to address additional concerns with the
           implementation of NAP and other crop emergency programs.

           The Texas State Office was in a position to identify and prevent the
           approval of a NAP area designation based on the timing of the county office
           NAP area request. The FSA county office should ensure that notice of
           losses are timely filed and that field inspections are timely performed.

                                        To the FSA Administrator:
 RECOMMENDATION NO. 14
                                      Instruct the Texas State FSA Office to review
                                      NAP area requests more closely and to confirm
           that the NAP area requests submitted by FSA county offices are proper and
           satisfy program requirements.

           FSA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           the FSA Compliance Branch has reminded the Texas State FSA Office of
           the importance to confirm the legitimacy of all proposed NAP areas before
           submission to the FSA NAP Branch for consideration.

           OIG Position

           To reach a management decision we need documentation showing the
           personnel involved in the discussion and a copy of the correspondence sent
           to the Texas State FSA Office.

                                        To the FSA Administrator:
 RECOMMENDATION NO. 15
                                      Require the Texas State FSA Office to review
                                      the cases and determine if producers complied
           with NAP provisions and recover any improper NAP payments made.




USDA/OIG-A/50801-3-KC                                                           Page 32
           FSA Response

           In its written comments on the draft report (see exhibit D), FSA stated that
           the Texas State FSA Office and Lynn County FSA staff reviewed the
           applicable program applications. The Texas State FSA Office required the
           county office to undertake any corrective action needed to correct
           deficiencies. The State office will follow up to ensure all required
           corrective action has been completed.

           OIG Position

           To reach a management decision we need documentation of the cases
           reviewed and the Texas State FSA Office compliance determinations for
           the cited cases. For any identified overpayments, we need documentation
           showing that a bill for collection has been sent and the amount has been
           entered as a receivable in the agency’s accounting records, or provided
           evidence that the overpayment has been collected.




USDA/OIG-A/50801-3-KC                                                         Page 33
EXHIBIT A – SUMMARY OF MONETARY RESULTS


FINDING
  NO.                     DESCRIPTION                                   AMOUNT                      CATEGORY
   1            Agencies Worked Together to                                                   Funds to Be Put to
  and           Preclude Improper Payments                                                    Better Use (FTBPTBU)
                                                                        28
Exhibit C                                                                    $274,547
   4            Improper CLDAP and NAP                                                        Questioned Costs,
  and           Payments Due to Producer and/or                                               Recovery
                                                                       29
Exhibit C       County Office Errors                                        1,080,685         Recommended
                                                                               65,655         Underpayments
                Excessive Crop Insurance                                                      Questioned Costs,
                Indemnities                                                                   Recovery
                                                                            30
                                                                                 149,178      Recommended
                LDP Overpayments                                                              Questioned Costs,
                                                                                              Recovery
                                                                                 31
                                                                                      2,358   Recommended
     6          CLDAP Payments Issued to                                                      Questioned Costs,
                Producers Ineligible for Crop                                                 Recovery
                Insurance                                                   8,793,695         Recommended
     8          Producers Received Both Single-                                               Questioned Costs,
                and Multi-Year CLDAP Payments                                                 Recovery
                                                                                 292,589      Recommended
                Producers Were Not Paid Under
                Most Beneficial (Single-Year or
                Multi-Year) Provisions                                     70,165 Underpayments
Total32                                                               $10,457,232




28
     $497,854 ($458,041 potential overpayments and $39,813 potential underpayments) less $223,307 reported in
Audit No. 50801-9-Te., dated August 1999.
29
    $821,548 in producer overpayments and $394,746 in county office errors less $135,609 reported in finding no. 1. Exhibit C,
actual overpayment of $1,083,043 includes this amount and $2,358 in LDP overpayments.
30
    $114,931 was referred to OIG-I and $34,247 was reported in our Statements of Conditions to the Kansas City and St. Paul RMA
Compliance Offices.
31
   See footnote 30.
32
   Net Amount.

USDA/OIG-A/50801-3-KC                                                                                             Page 34
EXHIBIT B – AUDIT SITES



                               PHASE I

      STATE            STATE            STATE               STATE
Arkansas         California        Georgia          Illinois
 Miller           Tehama            Grady             Clark
 Lincoln          Tulare            Decatur           Piatt
 White            Kings             Dooley            Champaign
 Jefferson        Merced            Crisp             Douglas
                  Ventura           Burke

Michigan         Minnesota         North Carolina   North Dakota
 Shiawassee       Redwood           Wake             Cass
                  Marshall          Johnston         Benson
                  West Polk         Nash             Cavalier
                  Clay              Grandville       Hettinger
                                    Edgecombe
South Dakota     Texas              Martin          Wisconsin
 Beadle           Comanche          Pitt             Marathon
 Charles Mix      Brooks            Greene
 Brown            Floyd             Wilson          Missouri
 Perkins          Willacy           Franklin         Vernon
                  Wharton           Wayne
Virginia                            Duplin          Kansas
 Dinwiddie                          Bladen           Douglas
 Amelia                             Sampson          Jefferson
 Mecklenburg                        Columbus         Shawnee




USDA/OIG-A/50801-3-KC                                               Page 35
                                           PHASE II
     STATE                     STATE                    STATE            STATE
Arkansas                California                Colorado          Georgia
 Chicot                  Glenn                     Otero             Bulloch
 Desha                   San Joaquin               Phillips          Decatur
                         San Luis Obispo           Weld
                         Stanislaus                Yuma

Kansas                  Louisiana                 Michigan          Missouri
 Douglas                 Franklin                  Berrien           Clark
 Jefferson                                         Gratiot           Pemiscot
 Shawnee

North Carolina          North Dakota              South Dakota      Texas
 Columbus                Benson                    Beadle            Hidalgo
 Robeson                 Nelson                    Brown             Lamar
 Sampson                 Ramsey                    Kinsbury          Lynn
 Wayne                                             Perkins
                                                   Charles Mix
Virginia                Wisconsin
 Pittsylvania            Ashland
 Dinwiddie               Marathon
 Amelia*



Amelia County also administers Chesterfield and Powhatan Counties




USDA/OIG-A/50801-3-KC                                                           Page 36
EXHIBIT C – SUMMARY OF STATEMENTS OF CONDITIONS ISSUED


                  State                 Audit No.                  Issue Date       Potential       Actual
                                                                                      Over/         Over/
                                                                                     (under)       (under)
                                                                                    Payments      Payments
                                                                                         33           34

           Wisconsin                50801-10-Ch                      July 9, 1999        $1,181           $0
           Kansas                   50801-3-KC                     July 14, 1999              0            0
           North Carolina           50801-10-At                     July 20,1999          6,917            0
           Arkansas                 50801-10-Te                    July 28, 1999          5,177        7,456
           Louisiana 35             50801-9-Te                    August 2, 1999       223,307             0
           Virginia                 50801-3-Hy                    August 5, 1999              0            0
           Missouri                 50801-9-KC                   August 20, 1999          8,220        8,242
                                                                                        (1,643)
           Michigan                 50801-9-Ch                   August 20, 1999              0       21,468
           Texas                    50801-8-Te                   August 30, 1999         32,167       26,292
                                                                                       (10,257)
           South Dakota             50801-6-KC                     September 1,          51,759
                                                                            1999
           California               50801-2-SF                     September 9,          76,139     988,507
                                                                            1999       (27,744)     (65,655)
           North Dakota             50801-10-KC                   September 20,           3,924        3,018
                                                                            1999
           Colorado                 50801-7-KC                    September 29,          9,390
                                                                            1999         (169)
           Georgia                  50801-9-At                   October 4, 1999        39,860    28,060
                                                                                     $458,041 $1,083,043
           TOTALS                                                                    ($39,813) ($65,655)


             RMA Office               Audit No.                   Date                    Overpayments
           St. Paul RMA             50801-10-KC              October 8, 1999        Questionable crop
           Compliance                                                               insurance claim –
           Office                                                                   unreported production-
                                                                                    $14,220
           Kansas City              50801-9-KC               October 8, 1999        Questionable crop
           RMA                                                                      insurance claim –
           Compliance                                                               unreported production-
           Office                                                                   $20,027




33
     Monetary amounts in this column pertain to Finding No. 1.
34
     Monetary amounts in this column pertain to Finding No. 4.
35
     This was an Audit report to the Louisiana State FSA Office.

USDA/OIG-A/50801-3-KC                                                                                      Page 37
EXHIBIT D – FSA RESPONSE TO DRAFT REPORT




USDA/OIG-A/50801-3-KC                      Page 38
USDA/OIG-A/50801-3-KC   Page 39
USDA/OIG-A/50801-3-KC   Page 40
USDA/OIG-A/50801-3-KC   Page 41
USDA/OIG-A/50801-3-KC   Page 42
USDA/OIG-A/50801-3-KC   Page 43
USDA/OIG-A/50801-3-KC   Page 44
USDA/OIG-A/50801-3-KC   Page 45
USDA/OIG-A/50801-3-KC   Page 46
USDA/OIG-A/50801-3-KC   Page 47
EXHIBIT E – RMA RESPONSE TO DRAFT REPORT




USDA/OIG-A/50801-3-KC                      Page 48
USDA/OIG-A/50801-3-KC   Page 49
                                             ABBREVIATIONS


CCC
       Commodity Credit Corporation.............................................................................. 8
CDP
       Crop Disaster Program.........................................................................................17
COC
     County Committee .................................................................................................. 6
CLDAP
     Crop Loss Disaster Assistance Program............................................................. 1
FCIC
     Federal Crop Insurance Corporation.................................................................... 9
FSA
     Farm Service Agency ............................................................................................. 1
KCMO
     Kansas City Management Office ......................................................................... 2
LDP
     Loan Deficiency Program.....................................................................................15
NAP
     Noninsured Crop Disaster Assistance Program................................................. 1
NASS
     National Agricultural Statistics Service ................................................................ 1
OGC
     Office of the General Counsel.............................................................................11
OIG
     Office of Inspector General – Audit ...................................................................... 6
OIG – I
     Office of Inspector General – Investigations .....................................................15
RMA
     Risk Management Agency..................................................................................... 2
USDA
     U.S. Department of Agriculture ............................................................................. 9




USDA/OIG-A/50801-3-KC                                                                                                  Page 50
